Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 A COMPARISON OF MEDICARE
   PROGRAM AND CONSUMER
 INTERNET PRICES FOR POWER
       WHEELCHAIRS




                    Daniel R. Levinson
                     Inspector General

                      October 2007
                     OEI-04-07-00160
               Office of Inspector General
                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                               S U M M A R Y


                  OBJECTIVE
                  To compare the Medicare fee schedule amounts for power wheelchairs to
                  Internet prices available to consumers.


                  BACKGROUND
                  Medicare beneficiaries are eligible to receive power wheelchairs under
                  Medicare Part B coverage of durable medical equipment. Medicare will
                  pay 80 percent of the cost of a power wheelchair, up to the fee schedule
                  amount, and the beneficiary is responsible for paying the remaining
                  amount. In 2006, Medicare and its beneficiaries spent over $900 million
                  on power wheelchairs.

                  In 2004, we found that Medicare and its beneficiaries paid higher prices
                  for power wheelchairs than consumers or suppliers. In November 2006,
                  the Centers for Medicare & Medicaid Services (CMS) implemented a
                  revised fee schedule for power wheelchairs as part of its strategy to
                  reform Medicare payments for these devices. The revised fee schedule
                  was designed to improve the accuracy of Medicare pricing for power
                  wheelchairs. However, the new fee schedule amounts have been
                  criticized by some suppliers as too low to cover the costs of the power
                  wheelchairs and the additional costs of providing them to Medicare
                  beneficiaries.

                  We collected and analyzed prices of power wheelchairs from the
                  Internet sites of power wheelchair suppliers during the first quarter of
                  2007. We then compared the median Internet prices of power
                  wheelchairs to the Medicare fee schedule amounts during the same time
                  period. In addition, we calculated the potential savings to Medicare and
                  its beneficiaries during the first quarter of 2007 had power wheelchair
                  claims submitted to Medicare been reimbursed at the median Internet
                  prices we collected.


                  FINDINGS
                  Medicare fee schedule amounts for power wheelchairs were
                  45 percent higher than median Internet prices available to
                  consumers in the first quarter of 2007. We found that the median
                  prices available to consumers over the Internet were less than the
                  Medicare fee schedule amounts for 24 of the 28 procedure codes for
                  which we collected Internet prices. On average, Medicare fee schedule
                  amounts for the 28 procedure codes were 45 percent higher than median

OEI-04-07-00160   A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES   FOR   POWER WHEELCHAIRS   i
E X E C U T I V E               S U           M M A R Y



                       Internet prices available to consumers in the first quarter of 2007.
                       Medicare’s fee schedule amount for the most frequently reimbursed
                       procedure code (K0823) exceeded the median Internet price by
                       36 percent.
                       Medicare and its beneficiaries could have achieved savings during
                       the first quarter of 2007 had Medicare reimbursements more closely
                       resembled prices available to consumers over the Internet. Had
                       suppliers been reimbursed for the same power wheelchairs at median
                       Internet prices, Medicare and its beneficiaries would have spent
                       approximately 28 percent ($39 million out of $138 million) less than
                       actual payments. On average, each beneficiary could have saved
                       $233 of his or her power wheelchair copayment. The most frequently
                       reimbursed procedure code (K0823) accounted for 68 percent of total
                       potential savings to Medicare and its beneficiaries.


                       RECOMMENDATION
                       We found that consumers could have purchased most power wheelchairs
                       over the Internet at prices lower than the Medicare fee schedule
                       amounts. We recommend that CMS:
                       Consider performing additional reviews to determine whether the
                       current Medicare power wheelchair fee schedule amounts for
                       certain groups and procedure codes are appropriate.


                       AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                       RESPONSE
                       CMS concurred with our recommendation. In addition, CMS noted
                       that, in mid-2008, Medicare payment amounts for power
                       wheelchairs in 10 large metropolitan statistical areas will be based
                       on power wheelchair suppliers’ competitive bids. CMS further
                       noted that it has the authority in future years to use payment
                       information from the competitive bidding program to adjust
                       payments in areas not included in the program.

                       OIG work is continuing in this area. We plan to conduct further
                       evaluations to compare Medicare fee schedule amounts to actual prices
                       paid by suppliers.




     OEI-04-07-00160   A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES   FOR   POWER WHEELCHAIRS   ii
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 8
                   Fee schedule amounts exceeded consumer Internet prices . . . . . . . 8

                   Medicare and its beneficiaries could have achieved savings . . . . . 10



         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12



         A P P E N D I C E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                   A: Performance Requirements by Group. . . . . . . . . . . . . . . . . . . . 13

                   B: Findings by Procedure Code . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                   C: Potential Savings. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

                   D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To compare the Medicare fee schedule amounts for power wheelchairs to
                  Internet prices available to consumers.


                  BACKGROUND
                  In 2003, combined spending for power wheelchairs by Medicare and its
                  beneficiaries peaked at $1.2 billion. In 2004, these expenditures
                  decreased to $850 million. However, Medicare and its beneficiaries
                  spent more than $900 million per year on power wheelchairs in 2005
                  and 2006.1
                  Medicare Coverage of and Reimbursement for Power Wheelchairs
                  Medicare beneficiaries are eligible to receive power wheelchairs under
                  Medicare Part B coverage of durable medical equipment (DME).
                  Medicare will reimburse suppliers when power wheelchairs are
                  medically necessary, the beneficiaries’ mobility problems can be
                  ameliorated or compensated for by the power wheelchairs, and the
                  beneficiaries’ environment supports the use of power wheelchairs,
                  among other criteria.2
                  A physician or a treating practitioner must conduct a face-to-face
                  examination of the Medicare beneficiary to assess the need for and
                  prescribe a power wheelchair.3 The beneficiary receives the power
                  wheelchair from a DME supplier which, in turn, bills the Medicare
                  program for reimbursement. Medicare Part B claims for power
                  wheelchairs are processed and paid by four DME Medicare
                  administrative contractors according to the Medicare fee schedule for
                  power wheelchairs. The Centers for Medicare & Medicaid Services
                  (CMS) sets fee schedule amounts for DME. Although fee schedule




                     1 Office of Inspector General analysis of CMS claims data, January and June 2007.
                     2 “Medicare National Coverage Determinations Manual,” section 280.3. Last modified
                         August 2005. Effective May 5, 2005, power wheelchairs may be medically necessary
                         for beneficiaries who cannot effectively perform mobility-related activities of daily
                         living using other mobility assistive equipment.
                     3 December 8, 2003, Section 302(a)(2) of the Medicare Prescription Drug, Improvement,

                         and Modernization Act of 2003, Public Law 108-173, added Section 1834(a)(1)(E)(iv) of
                         the Social Security Act.



OEI-04-07-00160   A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES   FOR   POWER WHEELCHAIRS   1
I N T R O D       U C T    I O N


                       amounts for many DME items vary by State to account for geographic
                       differences in price, power wheelchair fees are the same for all States.4
                       Medicare will pay 80 percent of the cost of a power wheelchair, up to the
                       fee schedule amount, and the beneficiary is responsible for paying the
                       remaining amount. To be reimbursed by Medicare, power wheelchairs
                       must include certain basic items, such as tires, leg rests, and battery
                       chargers. Delivery costs are also included in the power wheelchair fee
                       schedule amounts, except for rare and unusual circumstances (e.g., the
                       beneficiary lives in a remote area that is not served by a local supplier).5
                       However, certain items, such as batteries, are not included in the power
                       wheelchair fee schedule amounts and are reimbursed under separate
                       procedure codes.
                       Previous Office of Inspector General Work
                       In 2004, we found that Medicare and its beneficiaries paid higher prices
                       for power wheelchairs than consumers or suppliers.6 At that time,
                       97 percent of Medicare expenditures for power wheelchairs were covered
                       by one of the four procedure codes (K0011) on the Medicare fee schedule.
                       We reported that if K0011 power wheelchair prices had been adjusted to
                       the median price available to consumers over the Internet (hereafter
                       referred to as “Internet prices”), Medicare and its beneficiaries could
                       have saved over $224 million of the $829 million spent during 2002.

                       Further, we found that a wide variety of power wheelchair models were
                       reimbursable under procedure code K0011. Internet prices for these
                       models ranged from $1,600 to almost $17,000. Consequently, we
                       recommended that CMS implement a new coding system for power
                       wheelchairs to account for the variety in models and prices and
                       determine whether it was paying reasonable prices for these items.
                       Changes in the Medicare Fee Schedule for Power Wheelchairs
                       In November 2006, CMS implemented a revised fee schedule for power
                       wheelchairs as part of its strategy to reform Medicare payments for


                          4 Durable Medical Equipment, Prosthetics, Orthotics, and Supplies 2007 Fee Schedule.
                              Available online at
                              http://www.cms.hhs.gov/DMEPOSFeeSched/LSDMEPOSFEE/itemdetail.asp?filterTyp
                              =none&filterByDID=99&sortByDID=3&sortOrder=ascending&itemID=CMS1192263&
                              intNumPerPage=10. Accessed January 23, 2007.
                          5 Cigna Government Services. Available online at
                              http://www.cignagovernmentservices.com/jc/pubs/pdf/Chpt3.pdf. Accessed
                              August 2, 2007.
                          6 OEI-03-03-00460, “A Comparison of Prices for Power Wheelchairs.” April 2004.




     OEI-04-07-00160   A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES   FOR   POWER WHEELCHAIRS   2
I N T R O D          U C T       I O N



                        these devices. The revised fee schedule replaced the original four
                        procedure codes with 43 new procedure codes. According to CMS, the
                        new procedure codes are intended to describe the range of models and
                        options available in the power wheelchair market.7
                        The 43 procedure codes are tied to industry standards of performance
                        and durability. They are designed to support accurate payment and
                        coverage decisions and replace out-of-date codes that did not adequately
                        describe current technology.8 As of January 2007, 573 power
                        wheelchair models were reimbursable under these 43 procedure codes,
                        with as many as 75 models per code.9
                        The revised fee schedule is divided into three groups based on the power
                        wheelchair’s performance. Each group is further divided based on
                        patient weight capacity, seat type, portability, and power seating
                        system capability.10 Appendix A compares the performance
                        requirements of the three groups.

                        The revised fee schedule was designed to improve the accuracy of
                        Medicare pricing for power wheelchairs.11 However, the new fee
                        schedule amounts have been criticized by some suppliers of power
                        wheelchairs.12 These suppliers have claimed that Medicare’s revised fee
                        schedule amounts do not cover the cost of the power wheelchairs and
                        the additional costs of providing them to Medicare beneficiaries.




                           7 CMS Publication Number 11272-P, “2006 Fee Schedule Amounts for Power Mobility

                               Devices Have Been Refined,” November 2006.
                           8 Ibid.
                           9 Statistical Analysis Durable Medical Equipment Regional Carrier correspondence,
                               January 2, 2007.
                           10 “Power Mobility Device Coding Guidelines,” August 3, 2006. Available online from
                               the Statistical Analysis Durable Medical Equipment Regional Carrier at
                               http://www.palmettogba.com/palmetto/other.nsf/Attachments/85256D430058D01D8525
                               71CA004EC839/$FILE/Power+Mobility+Device+Coding+Guidelines+Final.doc.
                               Accessed August 1, 2007.
                           11 CMS Publication Number 11272-P, “2006 Fee Schedule Amounts for Power Mobility
                               Devices Have Been Refined,” November 2006.
                           12 “Power Wheelchair Industry Lines Up 44 House Members Opposing Medicare Fee
                               Cut,” November 3, 2006. Available online at
                               http://www.seniorjournal.com/NEWS/Medicare/6-11-03-PowerWheelchair.htm.
                               Accessed April 16, 2007.



   OEI-04-07-00160      A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES   FOR   POWER WHEELCHAIRS   3
I N T R O D       U C T    I O N




                       METHODOLOGY
                       We collected and analyzed consumer prices for power wheelchairs from
                       the supplier Internet sites from January 1 to March 31, 2007 (the first
                       quarter of 2007). We then compared the median prices of power
                       wheelchairs in each procedure code to the Medicare fee schedule
                       amounts during the same time period. In addition, we calculated the
                       potential savings to Medicare and its beneficiaries had power
                       wheelchair claims submitted to Medicare been reimbursed at the
                       median Internet prices we collected.

                       We used the product classification list generated by the Statistical
                       Analysis Durable Medical Equipment Regional Carrier as of January
                       2007. We identified 573 power wheelchair models under the
                       43 procedure codes (K0813–K0864).
                       Consumer Internet Prices
                       To identify Internet prices available to consumers, we reviewed the
                       supplier Internet sites we found using two widely used search engines
                       (Google and Yahoo). We used the Internet business directories of these
                       search engines to identify the suppliers. When particular power
                       wheelchair models were not sold by any of the suppliers listed in the
                       directories, we performed supplemental Internet searches for these
                       models using the same search engines. We reviewed all power
                       wheelchairs sold on the Internet sites found through these searches.
                       We collected prices from a total of 52 Internet sites of power wheelchair
                       suppliers located in the United States.

                       We obtained 635 prices for 126 power wheelchair models found on the
                       52 Internet sites. Each price we collected represents the amount a
                       consumer could pay to purchase a particular power wheelchair from the
                       supplier at the time we visited the suppliers’ Internet site.

                       For each Internet price we collected, we determined the procedure code
                       the power wheelchair would have been reimbursed under had it been
                       provided to a Medicare beneficiary. We found Internet prices for 28 of
                       the 43 procedure codes on the Medicare fee schedule. Over 99 percent of
                       power wheelchair claims submitted to Medicare during the first quarter
                       of 2007 were reimbursed under these 28 procedure codes.13 We

                          13 Suppliers submitted 33,834 claims for new, nonrental power wheelchairs during the

                              first quarter of 2007, current as of June 2007. The 28 procedure codes for which we
                              collected prices accounted for 33,542 of these claims.



     OEI-04-07-00160   A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES   FOR   POWER WHEELCHAIRS   4
I N T R O D         U C T         I O N



                      calculated the median Internet price for power wheelchairs in each of
                      the 28 procedure codes.

                      We determined whether the suppliers included batteries and delivery in
                      the power wheelchair prices when this information was available on the
                      Internet sites. The cost of batteries, which is reimbursed by Medicare
                      under separate procedure codes, is not included in the Medicare fee
                      schedule amounts for power wheelchairs.14 Medicare fee schedule
                      amounts for the batteries range from $30 to $186.15 Because a power
                      wheelchair uses two batteries, Medicare and its beneficiaries pay
                      between $60 and $372 per chair for batteries in addition to the cost of
                      the power wheelchair.16 Batteries were included in 440 of the
                      635 Internet prices (69 percent). We did not subtract the cost of the
                      batteries from these prices.

                      Delivery, which is included in the Medicare fee schedule amounts for
                      power wheelchairs, was included in 582 of the 635 Internet prices
                      (92 percent). For the remaining 8 percent of Internet prices, delivery
                      was not included or we were unable to determine whether delivery was
                      included. The highest delivery fee, when not included in the price of the
                      power wheelchair, was $55. We did not add the cost of delivery to these
                      Internet prices.
                      Price Comparison
                      We used the January 2007 national Durable Medical Equipment,
                      Prosthetics, Orthotics, and Supplies fee schedule to determine
                      Medicare’s allowable amounts for the 28 procedure codes. The fee
                      schedule amounts we used were for the purchase of new, nonrental
                      power wheelchairs. We removed all claims for used or rental power
                      wheelchairs as indicated by Modifiers 1–4 in the National Claims
                      History database. In the first quarter of 2007, less than 2 percent of all
                      Medicare power wheelchair expenditures were for used or rental power
                      wheelchairs.


                         14 Power wheelchair batteries are reimbursed by Medicare under procedure codes K0733
                             and E2360–E2365.
                         15 Durable Medical Equipment, Prosthetics, Orthotics, and Supplies 2007 Fee Schedule.
                             Available online at
                             http://www.cms.hhs.gov/DMEPOSFeeSched/LSDMEPOSFEE/itemdetail.asp?filterTyp
                             =none&filterByDID=99&sortByDID=3&sortOrder=ascending&itemID=CMS1192263&
                             intNumPerPage=10. Accessed January 23, 2007.
                         16 Statistical Analysis Durable Medical Equipment Regional Carrier correspondence,
                             August 2, 2007.



  OEI-04-07-00160     A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES   FOR   POWER WHEELCHAIRS   5
I N T R O D           U C T      I O N


                         For each procedure code, we calculated the percentage by which the
                         median Internet price differed from the Medicare fee schedule amount.
                         We also determined the average percentage differences between the
                         Medicare fee schedule amounts and median Internet prices for the three
                         power wheelchair groups and for all 28 procedure codes. To do this, we
                         weighted the percentage difference for each procedure code by the
                         Medicare expenditures for the procedure code during the first quarter of
                         2007. We then found the average of the weighted percentages for each
                         group and for all 28 procedure codes.
                         Potential Medicare Savings
                         We calculated the potential savings to Medicare and its beneficiaries in
                         the first quarter of 2007 had power wheelchairs been reimbursed at
                         median Internet prices for the 28 procedure codes. We obtained
                         Medicare claims and expenditure information by procedure code from
                         the National Claims History database for the first quarter of 2007.17
                         Because Medicare and its beneficiaries pay the actual charge for the
                         power wheelchair up to the fee schedule amount, we subtracted the
                         median Internet price from the Medicare allowed amount for all claims
                         submitted under the 28 procedure codes. We summed the differences to
                         obtain the total potential savings for the first quarter of 2007. We also
                         determined the potential savings for power wheelchairs in each of the
                         three groups.
                         Limitations
                         This study was not designed to meet CMS’s “inherent reasonableness”
                         standards for revising Medicare payment rates.18 Further, we did not
                         assess the administration costs of participating in the Medicare
                         program when calculating potential Medicare and beneficiary savings.
                         Instead, this study shows the extent to which Internet prices available
                         to consumers differ from Medicare fee schedule amounts.

                         We assumed that the power wheelchairs we reviewed included the basic
                         equipment items and services required by Medicare and did not include
                         items Medicare will reimburse separately. We also assumed that the
                         Internet prices established by suppliers were adequate to cover all


                            17 We analyzed data processed by CMS through June 2007 for claims with dates of

                                service between January 1 and March 31, 2007.
                            18 42 CFR § 405.502 (g). Available online at

                                http://a257.g.akamaitech.net/7/257/2422/14mar20010800/edocket.access.gpo.gov/cfr_20
                                02/octqtr/42cfr405.502.htm. Accessed October 25, 2007.



    OEI-04-07-00160      A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES   FOR   POWER WHEELCHAIRS   6
I N T R O D       U C T    I O N



                       administrative costs associated with selling the power wheelchairs and
                       provide a reasonable profit margin.

                       We also did not adjust prices based on battery and delivery charges. To
                       the extent possible, we determined whether the Internet prices included
                       batteries and delivery charges. Batteries are not included in the
                       Medicare fee schedule amount for power wheelchairs. However, at least
                       69 percent of all Internet prices we found included batteries. Delivery is
                       included in the Medicare fee schedule amounts for power wheelchairs,
                       and at least 92 percent of Internet prices that we found included
                       delivery. Medicare and its beneficiaries pay between $60 and $372 per
                       chair for power wheelchair batteries. The highest Internet delivery
                       charge was $55.

                       The first quarter of 2007 claims data we analyzed were current as of
                       June 2007. However, suppliers are permitted to submit claims up to
                       1 year after the date of service. Therefore, we assume our potential
                       savings calculations are conservative.
                       Standards
                       This study was conducted in accordance with the “Quality Standards for
                       Inspections” issued by the President’s Council on Integrity and
                       Efficiency and the Executive Council on Integrity and Efficiency.




     OEI-04-07-00160   A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES   FOR   POWER WHEELCHAIRS   7
Δ   F I N D I N G S



          Medicare fee schedule amounts for power                Medicare fee schedule amounts for
    wheelchairs were 45 percent higher than median               power wheelchairs exceeded
       Internet prices available to consumers in the             median Internet prices by an
                                  first quarter of 2007          average of 45 percent during the
                                                                 first quarter of 2007. Specifically,
                           the median prices available to consumers over the Internet were less
                           than the Medicare fee schedule amounts for 24 of the 28 procedure
                           codes for which we collected prices. The Medicare fee schedule amounts
                           were between 0.3 percent and 35 percent less than the median Internet
                           prices for the other four procedure codes.19 However, Medicare fee
                           schedule amounts for nine procedure codes exceeded median Internet
                           prices by more than 100 percent.

                           Power wheelchairs reimbursed under the 28 procedure codes for which
                           we collected Internet prices accounted for over 99 percent of power
                           wheelchair claims submitted to Medicare during the first quarter of
                           2007. Appendix B lists the median Internet prices and percentage
                           differences for all 28 procedure codes.
                           Medicare fee schedule amounts exceeded median Internet prices for power
                           wheelchairs in all three groups
                           On average, Medicare fee schedule amounts were 45 percent higher
                           than median Internet prices available to consumers. Within the three
                           groups of power wheelchairs, the average percentage by which the
                           Medicare fee schedule amounts exceeded median Internet prices was
                           greatest for Group 1 power wheelchairs. However, as illustrated in
                           Table 1 on the next page, Medicare fee schedule amounts for power
                           wheelchairs in all three groups exceeded median prices available to
                           consumers over the Internet during the first quarter of 2007. See
                           Appendix B for more details.




                              19 Claims for power wheelchairs in the four procedure codes accounted for less than

                                  2 percent of power wheelchair claims submitted to Medicare during the first quarter of
                                  2007.



         OEI-04-07-00160   A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES   FOR   POWER WHEELCHAIRS   8
F   I N D I N G       S




                             Table 1: Difference Between Internet Prices and the Medicare
                             Fee Schedule by Group

                                                                                               Average Percentage
                                                        Range of Procedure                   Medicare Fee Schedule
                            Group
                                                                    Codes*                  Amounts Exceed Median
                                                                                                     Internet Prices

                            Group 1                             K0813–K0816                                             72%

                            Group 2                             K0820–K0843                                             43%
                            Group 3                             K0848–K0864                                             65%
                               All Power
                                                               K0813–K0864                                              45%
                               Wheelchairs
                          * We analyzed Internet prices for power wheelchairs in 28 of the procedure codes referred to in this
                          column.
                          Note: All figures in the table have been rounded.
                          Source: Office of Inspector General analysis of consumer prices available over the Internet, 2007.


                      Group 1 power wheelchairs. Power wheelchairs classified under
                      Group 1 are covered by Medicare under four procedure codes. We
                      collected 44 prices for power wheelchairs in three of these procedure
                      codes. The fee schedule amounts for these three codes exceeded the
                      median consumer prices by an average of 72 percent.
                      Group 2 power wheelchairs. Power wheelchairs classified under
                      Group 2 are covered by Medicare under 21 procedure codes. We
                      collected 508 prices for power wheelchairs in 15 of these procedure
                      codes. The fee schedule amounts for these 15 codes exceeded the
                      median consumer prices by an average of 43 percent.
                      Group 3 power wheelchairs. Power wheelchairs classified under
                      Group 3 are covered by Medicare under 18 procedure codes. We
                      collected 83 prices for power wheelchairs in 10 of these procedure codes.
                      The fee schedule amounts for these 10 codes exceeded the median
                      consumer prices by an average of 65 percent.
                      Medicare’s fee schedule amount for the most frequently reimbursed
                      procedure code exceeded the median Internet price by 36 percent
                      Claims reimbursed under one procedure code (K0823) accounted for
                      75 percent of power wheelchair claims during the first quarter of 2007.
                      Power wheelchairs in procedure code K0823 are classified under
                      Group 2. They are designed for basic daily mobility for persons
                      weighing less than 300 pounds and feature an automotive-style seat.
                      Seventy-five power wheelchair models were reimbursable under
                      procedure code K0823 as of January 2007.

    OEI-04-07-00160   A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES     FOR   POWER WHEELCHAIRS   9
F   I N D I N G          S




                             Internet prices for K0823 power wheelchairs ranged from $1,452 to
                             $6,149. Consumers could have purchased K0823 power wheelchairs
                             over the Internet for a median price of $2,959. The Medicare fee
                             schedule amount was $4,024, which exceeded the median Internet price
                             by 36 percent. Eighty-six percent of Internet prices we reviewed for
                             K0823 power wheelchairs (190 of 222) were less than the Medicare fee
                             schedule amount. Table 2 illustrates the differences between Internet
                             prices and the Medicare fee schedule for K0823 power wheelchairs.

                                Table 2: Comparison of K0823 Power Wheelchair Prices

                               Range of Internet Prices                                              $1,452–$6,149

                               Median Internet Price                                                               $2,959

                               Medicare Fee Schedule Amount                                                        $4,024

                               Percentage Medicare Fee Schedule Amount
                                                                                                                     36%
                               Exceeds Median Internet Price
                             Note: All figures in the table have been rounded.
                             Source: Office of Inspector General analysis of consumer prices available over the
                             Internet, 2007.




           Medicare and its beneficiaries could have                  Medicare and its beneficiaries
                                                                      could have spent less on power
     achieved savings during the first quarter of 2007
                                                                      wheelchairs during the first
         had Medicare reimbursements more closely
                                                                      quarter of 2007 had they paid
       resembled prices available to consumers over                   median Internet prices.
                                          the Internet                Medicare and beneficiary power
                                                                      wheelchairs payments totaled
                             approximately $138 million in the first quarter of 2007.20 21 Medicare
                             and its beneficiaries could have spent $99 million—28 percent less than
                             actual payments—had suppliers been reimbursed for the same power
                             wheelchairs at median Internet prices available to consumers. Of the
                             potential savings,22 Medicare beneficiaries who received power
                             wheelchairs during the first quarter of 2007 could have saved a total of
                             $8 million in copayments. On average, each beneficiary could have
                             saved $233 of his or her power wheelchair copayment.


                                20 Office of Inspector General analysis of CMS claims data, May 2007. We analyzed
                                    first-quarter claims processed by CMS as of June 2007.
                                21 This amount excludes claims for rental and used power wheelchairs.
                                22 Total potential savings of $39 million could have been achieved by Medicare and its
                                    beneficiaries in the first quarter of 2007.



       OEI-04-07-00160       A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES   FOR   POWER WHEELCHAIRS   10
F   I N D I N G       S




                      Medicare and its beneficiaries could have achieved savings on power
                      wheelchairs in all three groups
                      Medicare and its beneficiaries would have spent less on power
                      wheelchairs in all three groups had they paid median Internet prices.
                      However, potential savings for power wheelchairs in Group 2 would
                      have been significantly greater than potential savings for power
                      wheelchairs in the other two groups combined. Group 1 and
                      Group 3 power wheelchairs accounted for 3 percent and 5 percent,
                      respectively, of power wheelchair claims (33,834) submitted to Medicare
                      in the first quarter of 2007. Group 2 power wheelchairs accounted for
                      93 percent of claims. Table 5 of Appendix C illustrates the differences
                      between the groups in percentages of claims and potential savings.
                      The most frequently reimbursed procedure code accounted for 68 percent
                      of potential savings to Medicare and its beneficiaries
                      Power wheelchairs reimbursed under the most frequently reimbursed
                      procedure code (K0823) accounted for 68 percent of total potential
                      savings. Medicare and its beneficiaries spent $102 million in the first
                      quarter of 2007 on K0823 power wheelchairs. Had suppliers been
                      reimbursed for these power wheelchairs at the median Internet price
                      ($2,959), Medicare and its beneficiaries would have spent approximately
                      $75 million on K0823 power wheelchairs during the first quarter of
                      2007, a potential savings of $27 million.

                      Medicare beneficiaries who received K0823 power wheelchairs could
                      have saved a total of approximately $5 million in copayments. On
                      average, each beneficiary could have saved $211 of his or her
                      K0823 power wheelchair copayment. Table 6 of Appendix C illustrates
                      the potential savings to Medicare and its beneficiaries for K0823 power
                      wheelchairs.




    OEI-04-07-00160   A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES   FOR   POWER WHEELCHAIRS   11
Δ      R E C O M M E N D A T I O N
                  Consumers could have purchased most power wheelchairs over the
                  Internet at prices lower than the Medicare fee schedule amounts.

                  On average, Medicare fee schedule amounts for power wheelchair
                  claims during the first quarter of 2007 exceeded median Internet prices
                  by 45 percent. Further, Medicare and its beneficiaries could have
                  achieved savings during the first quarter of 2007 had Medicare
                  reimbursements more closely resembled prices available to consumers
                  over the Internet.

                  Internet prices for power wheelchairs in the most frequently reimbursed
                  procedure code (K0823), which included 75 models, ranged from
                  $1,452 to $6,149. Consumers could purchase K0823 power wheelchairs
                  over the Internet for a median price of $2,959, which the Medicare fee
                  schedule amount exceeded by 36 percent. Furthermore, K0823 power
                  wheelchairs accounted for 68 percent of total potential savings. We
                  recommend that CMS:
                  Consider Performing Additional Reviews To Determine Whether the
                  Current Medicare Power Wheelchair Fee Schedule Amounts for
                  Certain Groups and Procedure Codes Are Appropriate.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with our recommendation. In addition, CMS noted
                  that, in mid-2008, Medicare payment amounts for power
                  wheelchairs in 10 large metropolitan statistical areas will be based
                  on power wheelchair suppliers’ competitive bids. CMS further
                  noted that it has the authority in future years to use payment
                  information from the competitive bidding program to adjust
                  payments in areas not included in the program.

                  OIG work is continuing in this area. We plan to conduct further
                  evaluations to compare Medicare fee schedule amounts to actual
                  prices paid by suppliers.

                  For the full text of CMS’s comments, see Appendix D.




OEI-04-07-00160   A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES   FOR   POWER WHEELCHAIRS   12
Δ       A P P E N D I X ~ A


Table 3: Performance Requirements for Power Wheelchair Groups

Performance                      Description of Performance                             Group 1               Group 2                   Group 3
Category                                            Category                        Requirement           Requirement               Requirement


Length                                                                                    40 inches           48 inches                 48 inches


Width                                                                                     24 inches           34 inches                 34 inches

                                      Vertical height of a solid
Obstacle height                                                                          0.79 inches        1.57 inches               2.36 inches
                               obstruction that can be climbed
                                          The minimum speed
Minimum top-end speed                 acceptable on a flat, hard               3 miles per hour         3 miles per hour        4.5 miles per hour
                                                        surface
                                        The minimum distance
Range                            acceptable on a single charge                               5 miles            7 miles                  12 miles
                                               of the batteries
                                The minimum degree of slope
                                at which the power wheelchair
                                  in the most common seating
Dynamic stability incline                                                      6 degrees (1:12)        6 degrees (1:12)        7.5 degrees (1:10)
                               and positioning configuration(s)
                                remains stable at the required
                                        patient weight capacity
Source: “Power Mobility Device Coding Guidelines,” August 3, 2006. From the Statistical Analysis Durable Medical Equipment Regional Carrier.




         OEI-04-07-00160            A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES   FOR   POWER WHEELCHAIRS    13
Δ             A P P E N D I X ~ B


  Table 4: Findings by Procedure Code—A Comparison of Medicare Fee Schedule Amounts and Prices
  Available Over the Internet for Power Wheelchairs, January–March 2007

                                                                                                                                                     Percentage
                                     Percentage of             Number of                                                        Medicare
  Medicare                                                                                                        Median                           Medicare Fee
                                            Power                Internet            Range of Internet                               Fee
  Procedure              Group                                                                                   Internet                      Schedule Amount
                                       Wheelchair                  Prices                       Prices                          Schedule
  Code                                                                                                              Price                       Exceeds Median
                                           Claims               Collected                                                        Amount
                                                                                                                                                 Internet Price**

  K0813                          1             0.27%                          14        $1,349–$3,295              $1,462             $2,412                   65.0%

  K0814                          1             1.27%                          19        $1,165–$5,500              $1,199             $3,088                   157.5%

  K0816                          1             0.87%                          11        $1,763–$5,295              $3,525             $3,367                   (4.5%)

  K0821                          2             0.86%                          28        $1,299–$3,436              $1,697             $3,308                   94.9%

  K0822                          2             9.14%                          94        $1,165–$7,027              $1,899             $4,008                   111.1%

  K0823                          2            74.92%                         222        $1,452–$6,149              $2,959             $4,024                   36.0%

  K0824                          2             0.87%                          10        $1,391–$2,349              $1,935             $4,843                   150.3%

  K0825                          2             3.92%                          48        $1,599–$5,895              $3,895             $4,230                    8.6%

  K0826                          2             0.10%                            2                          *       $2,400             $6,269                   161.2%

  K0827                          2             0.29%                            6       $2,978–$7,554              $3,742             $5,331                   42.5%

  K0828                          2             0.04%                            3       $2,890–$3,184              $2,890             $6,908                   139.0%

  K0829                          2             0.01%                            4                          *       $9,746             $6,344               (34.9%)

  K0830                          2             0.33%                            4       $2,405–$5,195              $2,900             $3,914                   35.0%

  K0831                          2             0.73%                          52        $2,405–$5,325              $3,999             $3,914                   (2.1%)

  K0835                          2             0.74%                          13        $3,695–$5,490              $3,955             $4,132                    4.5%

  K0836                          2             0.20%                          17        $3,125–$6,200              $3,900             $4,208                    7.9%

  K0838                          2             0.09%                            4       $1,599–$5,795              $3,923             $4,372                   11.5%

  K0842                          2             0.03%                            1                          *       $3,950             $4,319
                                                                                                                                                                9.3%
  K0848                          3             0.65%                            1                          *       $5,300             $5,434                    2.5%

  K0849                          3             0.75%                          41        $1,745–$5,995              $2,495             $5,081                   103.6%
* No variation in Internet prices.
** Parentheses indicate a negative value.
Note: All figures in the table have been rounded. These results are for new, nonrental power wheelchairs.
Source: Office of Inspector General analysis of consumer prices available over the Internet, 2007.




                      OEI-04-07-00160           A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES   FOR   POWER WHEELCHAIRS   14
  A     P P E N D                    I X     B




  Table 4 (Continued): Findings by Procedure Code—A Comparison of Medicare Fee Schedule Amounts and
  Prices Available Over the Internet for Power Wheelchairs, January–March 2007

                                                                                                                                                      Percentage
                                       Percentage of            Number of                                                        Medicare
  Medicare                                                                                                         Median                           Medicare Fee
                                              Power               Internet            Range of Internet                               Fee
  Procedure              Group                                                                                    Internet                      Schedule Amount
                                         Wheelchair                 Prices                       Prices                          Schedule
  Code                                                                                                               Price                       Exceeds Median
                                             Claims              Collected                                                        Amount
                                                                                                                                                  Internet Price**

  K0850                          3               0.08%                           1                          *       $5,595             $6,140                    9.7%

  K0851                          3               0.30%                         25        $2,498–$7,900              $4,799             $5,741                   19.6%

  K0852                          3               0.04%                           2       $5,583–$5,955              $5,769             $7,083                   22.8%

  K0853                          3               0.16%                           8       $4,535–$9,495              $7,296             $7,276                   (0.3%)

  K0855                          3               0.00%                           1                          *       $2,950             $9,105                   208.6%

  K0856                          3               1.21%                           2                          *       $4,100             $5,672                   38.3%

  K0859                          3               0.01%                           1                          *       $2,719             $6,538                   140.5%

  K0861                          3               1.24%                           1                          *       $2,331             $5,681                   143.7%
* No variation in Internet prices.
** Parentheses indicate a negative value.
Note: All figures in the table have been rounded. These results are for new, nonrental power wheelchairs.
Source: Office of Inspector General analysis of consumer prices available over the Internet, 2007.




                      OEI-04-07-00160            A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES   FOR   POWER WHEELCHAIRS   15
Δ           A P P E N D I X ~ C




   Table 5: Potential Savings for Power Wheelchairs, January–March 2007

                            Percentage of                                         Potential            Potential                  Total
                                                         Medicare
  Group                         Medicare                                         Savings to           Savings to               Potential
                                                      Expenditures
                                  Claims                                       Beneficiaries           Medicare                 Savings

  Group 1                                  3%              $3,017,390                  $165,064         $660,257               $825,321
  Group 2                                93%           $126,263,128               $7,093,648         $28,374,591          $35,468,239
  Group 3                                  5%              $8,982,483              $560,035           $2,240,140              $2,800,175
     All Power
                                        100%           $138,263,001               $7,818,747         $31,274,988          $39,093,735
     Wheelchairs
Note: All figures in the table have been rounded. Lines may not sum to totals because of rounding. These results are for new, nonrental
power wheelchairs. Dollar amounts were calculated based on the 28 procedure codes for which we collected Internet prices.
Source: Office of Inspector General analysis of consumer prices available over the Internet, 2007.




   Table 6: Potential Savings for K0823 Power Wheelchairs,
   January–March 2007

  Medicare Expenditures                                                        $101,789,963

  Potential Savings to Medicare                                                 $21,418,635

  Potential Savings to Beneficiaries                                              $5,354,659

     Total Potential Savings                                                    $26,773,294
Note: All figures in the table have been rounded. These results are for new, nonrental power
wheelchairs.
Source: Office of Inspector General analysis of consumer prices available over the Internet,
2007.




            OEI-04-07-00160             A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES   FOR   POWER WHEELCHAIRS   16
Δ   A P P E N D I X ~ D



                       AGENCY COMMENTS




     OEI-04-07-00160   A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES   FOR   POWER WHEELCHAIRS   17
A   P P E N D      I X   D




       OEI-04-07-00160   A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES   FOR   POWER WHEELCHAIRS   18
Δ   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Robert A. Vito, Acting
                  Regional Inspector General for Evaluation and Inspections in the
                  Atlanta regional office, and Dwayne F. Grant, Deputy Regional
                  Inspector General.

                  Mina Zadeh served as the team leader for this study, and Sarah
                  Ambrose served as the lead analyst. Other principal Office of
                  Evaluation and Inspections staff from the Atlanta regional office who
                  contributed to this report include Marcus Britton, Diane Caves, Peggy
                  Daniel, and Jaime Durley; central office staff who contributed include
                  Eddie Baker, Dave Graf, Kevin Farber, and Scott Manley.




OEI-04-07-00160   A C O M PA R I S O N   OF   MEDICARE PROGRAM   AND   CONSUMER INTERNET PRICES   FOR   POWER WHEELCHAIRS   19
